ELLEN F. ROSENBLUM

FREDERICK M. BOSS

Attorney General

Deputy Attorney General

DEPARTMENT OF JUSTICE
APPELLATE DIVISION

February 26, 2020
Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street N.E.
Washington, D.C. 20540
Re:

Brandon Kelly v. Lydell Marcus White, No 19-264

Dear Mr. Harris:
In accordance with this Court’s Rule 46.1, the parties agree that this case be
dismissed. The parties have agreed to bear their own costs in this Court. All fees
have been paid.
The parties respectfully request that the Clerk enter an order of dismissal
under Rule 46.1
Respectfully submitted,
/s/ Benjamin Gutman
Benjamin Gutman
Counsel of Record for Petitioner

/s/ Jeffrey E. Ellis
Jeffrey E. Ellis
Counsel of Record for Respondent

1162 Court Street NE, Salem, OR 97301-4096
Telephone: (503) 378-4402 Fax: (503) 378-3997 TTY: (800) 735-2900 www.doj.state.or.us

